<html>
<title> - INNOVATION AND AMERICA'S INFRASTRUCTURE: EXAMINING THE EFFECTS OF EMERGING AUTONOMOUS TECHNOLOGIES ON AMERICA'S ROADS AND BRIDGES</title>
<body><pre>[Senate Hearing 115-313]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 115-313

   INNOVATION AND AMERICA'S INFRASTRUCTURE: EXAMINING THE EFFECTS OF 
    EMERGING AUTONOMOUS TECHNOLOGIES ON AMERICA'S ROADS AND BRIDGES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 13, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







        Available via the World Wide Web: http://www.govinfo.gov
        
    			 
	               U.S. GOVERNMENT PUBLISHING OFFICE 
			 
  31-205 PDF                   WASHINGTON : 2018                 
	       
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 13, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..   151

                               WITNESSES

Panos, William ``Bill,'' Director, Wyoming Department of 
  Transportation.................................................     3
    Prepared statement...........................................     5
    Responses to additional questions from:
        Senator Barrasso.........................................    18
        Senator Carper...........................................    20
        Senator Whitehouse.......................................    26
Bhatt, Shailen, President and CEO, Intelligent Transportation 
  Society of America.............................................    29
    Prepared statement...........................................    31
    Response to an additional question from Senator Barrasso.....    52
    Responses to additional questions from:
        Senator Carper...........................................    54
        Senator Whitehouse.......................................    62
Doerzaph, Zachary, Director, Center for Advanced Automotive 
  Research.......................................................    69
    Prepared statement...........................................    71
    Responses to additional questions from:
        Senator Carper...........................................    74
        Senator Whitehouse.......................................    79
Trottenberg, Polly, Commissioner, New York City Department of 
  Transportation.................................................    82
    Prepared statement...........................................    84
    Responses to additional questions from:
        Senator Carper...........................................    98
        Senator Whitehouse.......................................   103
Kildare, Shaun, Director of Research, Advocates for Highway and 
  Auto Safety....................................................   109
    Prepared statement...........................................   111
    Responses to additional questions from:
        Senator Carper...........................................   138
        Senator Whitehouse.......................................   143

                          ADDITIONAL MATERIAL

Public to U.S. Senate: Pump the Brakes on Driverless Car Bill. 
  ORC International CARAVAN Public Opinion Poll. Advocates for 
  Highway and Auto Safety, July 2018.............................   169
Testimony of the American Traffic Safety Services Association, 
  June 13, 2018..................................................   174
Comments from the American Trucking Associations, March 1, 2018..   177
Letter to Senators Barrasso and Carper from the Center for Auto 
  Safety, June 13, 2018..........................................   179
Letter to Senators Barrasso and Carper from CRASH, the National 
  Consumers League, and Consumers for Auto Reliability and 
  Safety, June 13, 2018..........................................   184
Support Proposed Amendments to the ``AV START Act,'' from the 
  United States Conference of Mayors, adopted June 11, 2018......   187

 
   INNOVATION AND AMERICA'S INFRASTRUCTURE: EXAMINING THE EFFECTS OF 
    EMERGING AUTONOMOUS TECHNOLOGIES ON AMERICA'S ROADS AND BRIDGES

                              ----------                              


                        WEDNESDAY, JUNE 13, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Capito, Wicker, 
Fischer, Rounds, Ernst, Sullivan, Cardin, Merkley, Gillibrand, 
Booker, Markey, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Well, good morning. I call this hearing 
to order.
    Today we are going to examine the implications of emerging 
technologies of America's roadway infrastructure.
    Last month our Committee unanimously passed bipartisan 
legislation to approve America's water infrastructure. We are 
now working together to pass America's water infrastructure act 
on the Senate floor. I believe this bipartisan success on water 
infrastructure is going to lead to bipartisan success on 
America's surface transportation infrastructure, namely, 
legislation to address our roads and our bridges.
    We are planning to build infrastructure that will last for 
decades. We need to understand the new challenges that those 
decades will bring to all of us. The ongoing development and 
implementation of autonomous vehicles and connected vehicles 
and other innovations have the potential to fundamentally 
change the way our Nation's infrastructure works.
    Autonomous vehicles will likely require modification to our 
roadways and changes to the practices of Federal, State, and 
local transportation agencies. It is critical that State and 
Federal transportation agencies are prepared and equipped to 
tackle the potential opportunities and challenges they present 
for our roads. Those agencies will need to develop, install, 
and maintain traffic control devices in such a way that they 
are understood and obeyed by motorists, as well as autonomous 
vehicles.
    As autonomous vehicles become more common on the road, they 
could influence regional traffic models and forecasts. They 
will also add new factors as agencies make long-term planning 
decisions. At the same time, new vehicles technologies offer 
many potential benefits and could transform the way that we 
view surface transportation altogether.
    Soon, elderly and disabled Americans, as well as those 
without a car of their own, may be able to travel by vehicle 
with greater ease and greater independence. Likewise, these 
innovations have great potential to reduce crashes and 
fatalities, to improve mobility, and to increase the efficiency 
of the roadway system. How their benefits are realized will 
depend on industry and agencies working together to make sure 
that our roads keep pace with the vehicles that they 
accommodate.
    An excellent example of infrastructure innovation is 
happening in my home State of Wyoming. The Wyoming Department 
of Transportation is implementing a Connected Vehicle Pilot 
program to improve monitoring and reporting of road conditions 
on Interstate 80. Projects like these are vital for the future 
of our Nation's roadway infrastructure.
    So, I am glad that Bill Panos, the Wyoming Director of the 
Department of Transportation, is here to tell us more about 
that project and other work being done in his department.
    I also want to thank all of the other witnesses for 
participating in today's hearing. Your expertise and insight 
will help us understand potential high tech challenges and 
opportunities for our Nation's roadway infrastructure.
    Senator Carper is unavoidably delayed; he will be here 
shortly, and he will make his full opening statement at that 
time.
    So, I want to thank all of you for being here.
    I am pleased to welcome Bill Panos, who has served as the 
Director of the Wyoming Department of Transportation. He is a 
graduate of California State University, where he received a 
degree in forensic science and technology. Before moving to 
Wyoming, he accrued 37 years of experience leading private and 
public service organizations. He has also served as the 
Director of the Wyoming School Facilities Department.
    Joining Bill today in testifying will be Mr. Shailen Bhatt, 
who is the President and CEO of the Intelligent Transportation 
Society of America; Mr. Zachary Doerzaph, who is the Director 
of the Center for Advanced Automotive Research; Polly 
Trottenberg, who is the Commissioner for the New York City 
Department of Transportation; and Shaun Kildare, the Director 
of Research at Advocates for Highway and Auto Safety.
    I want to remind the witnesses that your full written 
testimony will be made part of the official hearing record 
today, so please keep your statements to 5 minutes so that we 
will have time for questions. I look forward to hearing the 
testimony from each of you.
    With that, we will begin with Mr. Panos. Appreciate your 
being here.

             STATEMENT OF WILLIAM ``BILL'' PANOS, 
         DIRECTOR, WYOMING DEPARTMENT OF TRANSPORTATION

    Mr. Panos. Chairman Barrasso and members of the Committee, 
I am Bill Panos, Director of the Wyoming Department of 
Transportation. I am here today on behalf of WYDOT and AASHTO.
    The Committee's premise in holding this hearing is correct; 
connected and automated vehicles have implications for highway 
infrastructure. In addressing those infrastructure issues, 
safety is a top priority for State DOTs. That includes 
attention to striping and signage, as well as to more complex 
issues. Collaboration between technology developers, vehicle 
manufacturers, and government agencies is important. This 
includes working to ensure interoperability of systems so that 
deployment of dedicated short range communications, or DSRC, 
along the highway system will be effective. Let me elaborate.
    These new technologies have the potential to reduce 
crashes, save lives, and provide other benefits. However, there 
is still uncertainty surrounding these innovative technologies, 
including infrastructure related issues. For example, for there 
to be highway infrastructure, work zones on the roads are 
inevitable. How will an automated driving system, or ADS, get 
by work zones? What are the specific signage and striping 
needs? What advisories from DSRC enabled infrastructure would 
help connected and autonomous vehicles and improve safety?
    State DOTs are preparing for deployment of CAVs by, among 
other things, starting to plan and deploy relevant technology 
as part of the highway infrastructure, and these investment 
needs are near term, in part because a connected vehicle need 
not be an automated vehicle. Cars driven by people are 
increasingly equipped with electronics that can receive data 
from DSRC enabled equipment along the roadway. DSRC signals can 
help non-automated, as well as automated, vehicles effectively 
``see'' in bad weather, provide other information, such as on 
traffic congestion.
    State and local agencies are active in deploying and 
testing these systems today. Approximately 50 U.S. locations 
are deploying connected vehicle technologies. This represents 
roughly 72,000 vehicles and 65,000 devices installed on the 
Nation's infrastructure. WYDOT is an active participant.
    To improve safety along the 402 miles of Interstate 80 in 
Wyoming, particularly in our tough winters, Wyoming is 
implementing a pilot program using DSRC enabled technology to 
connect vehicles to infrastructure and to other vehicles. 
During Federal fiscal year 2016 more than 1,600 crashes 
occurred on I-80 in Wyoming, resulting in 18 fatalities and 271 
injuries. In December 2016 there were only 8 days when I-80 in 
Wyoming was fully open.
    As part of the effort to improve the situation, the pilot 
program will test warnings advising travelers of crashes ahead. 
It will also advise about weather, speed restrictions, work 
zones, and other matters. Testing with WYDOT vehicles occurred 
last winter, and we will be testing commercial freight vehicles 
this winter.
    Let me turn to a few more points on the infrastructure 
implications of CAV deployment.
    Currently State DOTs are unsure which roadway elements are 
critically important to automated driving system, or ADS, 
technology. We know that quality signage and striping are 
important, but welcome more details. In most cases, striping is 
a maintenance, not a capital, activity. Similarly, sign 
maintenance is not a capital activity.
    All other things being equal, an increase in maintenance 
costs would reduce funding available for capital investments in 
transportation, so we want to understand the maintenance 
implications of CAV deployment. In addition, if ADS equipped 
vehicles have sensors that could be adversely impacted by poor 
ride quality, that could place upward pressure on already high 
needs for investments to maintain and improve pavement ride 
quality.
    There are additional issues where State DOTs want to better 
understand what type of information would help all CAVs.
    Deployment of ADS technology in rural environments also 
raises issues. For example, DSRC enabled infrastructure on long 
rural highways would be costly. This suggests different 
solutions for advisories in very rural areas, such as cellular 
technology, at least where there is adequate cell phone 
service. In any event, we want vehicles to have access to 
weather, crash, and other key advisory information. It seems 
that we have to put technology into the infrastructure to do 
that.
    So, when a State DOT talks about interoperability, it is 
not to tell a developer how to equip a vehicle. Simply, if a 
State is deciding whether to use scarce infrastructure dollars 
to deploy DSRC enabled systems, it wants to know that the 
investment in DRC can successfully communicate advisory 
information to vehicles.
    In conclusion, Mr. Chairman, CAVs are arriving and are in 
our future. We want the infrastructure to be safer than it has 
ever been when they are deployed. States are eager to work hard 
toward those ends.
    Thanks for the opportunity to appear before the Committee 
today.
    [The prepared statement of Mr. Panos follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    Senator Barrasso. Thanks for your testimony, Mr. Panos. 
Appreciate it.
    Mr. Bhatt.

        STATEMENT OF SHAILEN BHATT, PRESIDENT AND CEO, 
         INTELLIGENT TRANSPORTATION SOCIETY OF AMERICA

    Mr. Bhatt. Chairman Barrasso, Ranking Member Carper, and 
members of the Committee, thank you for the opportunity to be 
here today. When last I testified in front of this Committee I 
served as the Executive Director of the Colorado Department of 
Transportation. At that time I discussed how a mix of road 
investment and innovation was needed to solve Colorado's 21st 
century transportation challenges.
    I am now President and CEO of the Intelligent 
Transportation Society of America, which brings together public 
sector agencies, private sector companies, and researchers 
unified by our vision of a better world transformed by 
intelligent mobility--one that is safer, greener, and smarter. 
I am honored to be on this panel today with three ITS America 
members.
    Today's hearing takes place at an important time. Just as 
infrastructure was critical to the development of our economy 
in the 20th century, maintenance of existing roads, bridges, 
and other infrastructure, and deployment of intelligent 
infrastructure will be critical for our global competitiveness 
in this century.
    Advances in robotics, artificial intelligence, and wireless 
communications have inspired a race to make the next generation 
of mobility a reality. We are on the leading edge of a 
technology revolution that will define the way people, goods, 
and information move in the 21st century. It is a whirlwind of 
innovation that will change entire industries, as well as 
transform communities large and small, urban and rural.
    That transformation will positively affect both the safety 
and operation of our transportation system if we do it well. In 
2016, 37,461 people died on U.S. roads. That is more than 100 
people per day. Pedestrian deaths in that year rose 9 percent. 
More than 90 percent of roadway crashes are caused in some way 
by human error. That is a sobering statistic, but we have 
technologies that will make a difference.
    Technologies such as pedestrian automatic emergency braking 
will use automation to detect pedestrians and prevent 
tragedies. Through dedicated short range communications and 
other technologies, we also have the capability to allow 
vehicles to communicate with other vehicles, smart 
infrastructure, and other users of the system.
    Safety has always been our top priority and is the reason 
many of us are passionate about this work.
    In addition to injuries and fatalities, however, there are 
major mobility and environmental implications. Americans 
currently lose roughly 40 hours per person per year sitting in 
traffic, which costs each driver almost $1,500 per year. 
Collectively, this drains $305 billion from our economy and 
wastes 3.1 billion gallons of fuel. Here, technology can play a 
key role in putting money back into Americans' pockets and 
improving the environment in which we live. Freight that is 
stuck in traffic costs Americans more.
    This is why, under Colorado's RoadX program in 2016, we 
sent a truck on the world's first autonomous freight delivery. 
One of our members, Peloton, is developing driver assisted 
truck platooning technology that will improve the flow of goods 
across the country, while reducing fuel consumption of trucks 
by 7 percent.
    Another way of reducing fuel consumption is through 
electrification, which is an important part of the future of 
intelligent mobility. Right now, by reducing crashes, we can 
greatly reduce traffic congestion in this country. More than 50 
percent of congestion is caused by non-recurring incidents. 
Minor fender benders result in hours of frustration and 
inefficiencies in our system. The deployment of connected 
vehicle technologies will improve traffic flow across the 
country.
    Connected and automated vehicle technologies and smart 
infrastructure have the potential to give us back our most 
precious resource--time. By applying intelligent transportation 
technologies toward existing infrastructure, we can maximize 
the efficiency of our system.
    Twenty-six States and 45 cities are currently deploying V2I 
communications that use DSRC. Some of these applications will 
include bridge and pavement monitoring, curb speed warning, 
reduce speed areas such as in construction zone, and spot 
weather warnings, all of which will reduce crashes by providing 
vehicles and drivers with the most accurate and up to date 
information.
    The most important connection between vehicles and 
infrastructure has historically been the tire. Today there are 
many ways for vehicles to interface with infrastructure and 
with other vehicles. We need to prepare for a future that 
involves a mixed fleet of intelligent and unconnected vehicles. 
The best way to do this is to maintain our infrastructure in a 
state of good repair, specifically as that relates to pavement 
markings and signage.
    However, we need to understand signs that work well for 
human eyes may need to be adapted for machine reading. We also 
need to understand how cities and States will take these waves 
of big data that vehicles are producing and turn it into 
actionable information.
    Before I close, I urge Congress and the Administration to 
identify long-term sustainable funding for the Highway Trust 
Fund to maintain our infrastructure for all the reasons I have 
just outlined. In my nearly 10 years as a State DOT leader, I 
have always said that Departments of Transportation exist to 
save lives and make people's lives better. I firmly believe 
that advances in vehicle technology and in smart infrastructure 
are the best tools in our toolbox to achieve those goals.
    Thank you again for this opportunity, and I am happy to 
answer your questions.
    [The prepared statement of Mr. Bhatt follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Barrasso. Thank you very much, Mr. Bhatt. We 
appreciate your being here.
    Mr. Doerzaph.

                STATEMENT OF ZACHARY DOERZAPH, 
       DIRECTOR, CENTER FOR ADVANCED AUTOMOTIVE RESEARCH

    Mr. Doerzaph. Chairman Barrasso and members of the Senate 
Committee on Environment and Public Works, at BTTI we conduct 
research for many public and private organizations on automated 
systems that are infrastructure and the people who own, 
operate, and ride within them. It is an honor to be here to 
discuss this very important topic with you. I am quite 
passionate about it myself.
    Automation may indeed substantially one day have a positive 
impact on transportation safety and efficiency. However, 
exceeding the capability of the human driver is extraordinarily 
difficult and is currently underestimated by many. To achieve 
the same safety benefit as the best 10 percent of drivers, 
automated vehicles, for all practical purposes, can never 
virtually crash.
    Large scale deployment of automated vehicles will take 
decades to achieve, and there will be a significant percentage 
of manually driven vehicles for the foreseeable future. 
Automation remains costly, does not equally benefit all users, 
and does not operate ubiquitously across all environments.
    Fortunately, though, automated vehicles are very much being 
designed to operate on roadways that were created for human 
drivers. As with humans, the reliability of those automated 
systems depends on things like roadway design quality, lane 
markings, signs, and other traffic control devices.
    At the same time, though, specific infrastructure elements 
do create particular challenges unique to automated vehicles. 
These edge and corner cases, as we call them, pertain to things 
like work zones and emergency situations, adverse weather, and 
anywhere that humans can exchange a simple nod, glance, or hand 
wave in order to communicate with another road user, which is 
where connected vehicle technologies come in. These 
technologies, which allow vehicles to communicate with other 
vehicles, as well as the infrastructure and other road users, 
provide an additional mechanism for improving the perception, 
recognition, path planning processes for automation, resulting 
in safer and more efficient systems overall.
    Connectivity also enables this proactive conversation to 
take place between vehicles and vehicles in infrastructure, 
much like humans do today.
    So, in conclusion, I believe there are measured actions 
that should be taken by all stakeholders based on careful 
planning to exercise that safety is maintained throughout the 
evolution and deployment of automated vehicles, and I recommend 
doing so through the following approach.
    Support partial automation today. These are systems which 
are compatible with the infrastructure, and when appropriately 
designed, these limited automations, such as emergency 
automated braking, lane keep assist, and others, improve safety 
and reduce congestion by leveraging the strengths of both the 
human and the machine.
    The Federal Government can play a role in providing a clear 
pathway to increasing levels of automation with appropriate 
operational domains based on demonstrated success.
    I also believe we need to incentivize precompetitive 
collaboration between individual companies, as well as between 
those companies and the road operators, to collaboratively 
overcome the technology and policy hurdles.
    We also need to facilitate the mechanisms for automated 
vehicles to report road deficiencies back to the operators so 
that we have a closed loop cycle of improving those facilities. 
We need to provide the resources and guidance required to 
improve our physical and digital infrastructure through applied 
research and deployment support.
    Connected technologies require a robust, nationally 
interoperable back end data system, precise vehicle 
localization, and accurate infrastructure information across 
city, State, and local borders. It is imperative that security 
mechanisms which establish digital trust and identify and 
remediate threats are in place.
    We also need to facilitate a broad dialogue and correlation 
to define the appropriate oversight role for the Federal and 
State public agencies to develop mechanisms for monitoring and 
updating such oversight in order to balance innovation with 
public safety based on objective measures.
    And finally, I would be remiss if I did not mention that I 
believe we need to maintain this pace of innovation by 
facilitating next generation transportation work force through 
technology focused multidisciplinary education and by 
supporting a variety of programs for students at all levels.
    [The prepared statement of Mr. Doerzaph follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Senator Barrasso. Well, thanks so much for your testimony. 
It will be interesting about this next generation work force. I 
look forward to getting into that with the questioning.
    Commissioner Trottenberg, thank you very much for joining 
us. Please proceed.

         STATEMENT OF POLLY TROTTENBERG, COMMISSIONER, 
           NEW YORK CITY DEPARTMENT OF TRANSPORTATION

    Ms. Trottenberg. Thank you.
    Good morning, Chairman Barrasso and members of the 
Committee. On behalf of Mayor Bill de Blasio, I thank you for 
inviting me here today to share New York City's perspective on 
the deployment of highly automated vehicles in major urban 
areas.
    New York, like our sister cities, shares a common interest 
in ensuring HAV technology is deployed in a way that enhances 
urban mobility, safety, and environmental sustainability. We 
are grateful to have this opportunity to discuss areas of 
concern and see where there are areas of partnership.
    As the Nation's largest and densest city, with a population 
of 8.6 million and growing, New York City is responsible for 
the operation and maintenance of a highly complex surface 
transportation network, including 6,000 miles of heavily 
traveled urban roadways, 12,000 miles of sidewalks, over 13,000 
signals, and nearly 800 bridges and tunnels, many of them well 
over 100 years old; and we work closely to operate an 
integrated and efficient transportation system with the MTA, 
which runs our subway and bus system with over 8 million 
transit trips per day.
    I hope my perspective as a city DOT commissioner and former 
undersecretary at USDOT will prove useful as the Senate 
deliberates on the opportunities and challenges we face with 
HAVs and the implication of this technology for our roads and 
bridges.
    Comments from industry suggest that cities need to get 
their infrastructure ready for the deployment of HAVs. I would 
argue just the opposite.
    New HAV technology should, instead, be prepared to operate 
safely and effectively in complex urban environments; in snow, 
with traffic control officers managing an intersection when 
signals are out and judgment is needed or where pavement 
conditions or lane markings are deteriorated. It is simply not 
realistic or feasible to expect cities to overhaul their 
existing roadway infrastructure to accommodate a still somewhat 
unproven technology.
    New York is proud to be the first U.S. city to embrace the 
concept of Vision Zero, which declares that all traffic deaths 
and serious injuries are preventable. In the last 4 years New 
York City has achieved remarkable results. Traffic deaths have 
declined by 27 percent, and pedestrian fatalities have declined 
by 44 percent. And New York City is bucking the national trend, 
where, tragically, roadway fatalities have increased by 15 
percent.
    We have achieved these results through a strong partnership 
between New York City DOT and the NYPD, as well as robust 
investment in a comprehensive data driven roadway safety 
program relying on engineering, education, and enforcement. 
HAVs hold the promise of dramatically reducing traffic deaths 
and serious injuries, but to achieve this promise, the U.S. 
should first establish rigorous foundational safety standards 
across the board.
    For example, the European Commission recently proposed 
that, starting in 2020, all new vehicles sold in Europe must be 
equipped with intelligent speed assistance, pedestrian and 
cycling recognition systems, and automated braking.
    In the U.S., we should be advancing similar standards and 
NHTSA should build on and integrate the best elements of the 
approaches being used by California and Boston, adopting an 
approach of incremental testing for HAVs with data sharing 
requirements.
    Cities are where the bulk of Americans live and travel now, 
and for many, including New York, congestion has become a 
critical challenge. HAVs hold the promise of reducing 
congestion or profoundly exacerbating it. Unfortunately, to 
date, the Federal Government has not meaningfully involved 
cities in its development of HAV policy. Moving forward, we 
request that USDOT and NHTSA engage with cities more directly. 
We will all be most successful as partners, cities, States, 
USDOT, and the industry.
    It is critical to establish protocols that allow HAV safety 
data to be shared with States and cities. Some data, when 
appropriate, should also be shared publicly. Providing for a 
robust level of transparency for HAV safety data will be 
essential to create a safety culture akin to that of the U.S. 
aviation sector.
    Throughout U.S. history traffic safety has always been a 
shared responsibility of the Federal, State, and local 
governments. This authority must be unambiguously preserved in 
the AV START Act, and HAVs must be programmed to follow all 
State and local laws, including speed limits.
    The legislation also does not require standards based 
verifiable testing of HAV systems. We urge the Senate to revise 
the legislation before it advances.
    Of all the disruptive challenges HAVs are poised to bring, 
none may be as consequential as the impact on our Nation's work 
force. According to recent census data, more than 4.4 million 
Americans, including approximately 250,000 New Yorkers, make 
their living driving.
    All of our communities, urban and rural alike, will need to 
confront the potential human toll that this disruptive 
technology could take. The Federal Government needs to help 
ensure that innovation and opportunity for some does not mean 
we are leaving others without a livelihood.
    As Congress considers its approach to fast developing HAV 
technology, I urge you to enlist cities as partners. New York 
City stands ready to work with you.
    I thank the Committee and look forward to your questions.
    [The prepared statement of Ms. Trottenberg follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    Senator Barrasso. Thank you so much for your testimony, 
Commissioner Trottenberg.
    Mr. Kildare.

       STATEMENT OF SHAUN KILDARE, DIRECTOR OF RESEARCH, 
             ADVOCATES FOR HIGHWAY AND AUTO SAFETY

    Mr. Kildare. Good morning, Chairman Barrasso, Ranking 
Member Carper, and members of the Committee. I am Shaun 
Kildare, Director of Research for Advocates for Highway and 
Auto Safety, a coalition of public health, safety, consumer 
organizations, and property/casualty insurance companies 
dedicated to advancing safer vehicles, safer drivers, and safer 
roads. Thank you for the opportunity to testify.
    Each year motor vehicle crashes kill tens of thousands of 
people and injure millions more, at a cost of over $800 
billion. Moreover, at a time when deaths on our Nation's roads 
are remaining unacceptably high, America's infrastructure is in 
deep disrepair. The American Society of Civil Engineering gives 
our roads a grade of D and reports that 1 in 11 of our nearly 
615,000 bridges are structurally deficient.
    In addition to committing resources to fix our roads and 
bridges, substantial investments will be required to ensure 
that autonomous vehicles, or AVs, can operate safely. Federal 
leadership is needed to achieve infrastructure improvements and 
to create a regulatory framework for vehicle design and 
performance.
    Advocates has always been a strong champion for vehicle 
safety technology and infrastructure improvements. So, too, do 
we believe that in the long-term AVs may once and for all bring 
about meaningful reductions in the death and injury toll on our 
Nation's roads. The industry touts that AVs will improve 
safety, reduce congestion, and benefit the environment. 
Instead, what we have seen is a number of crashes resulting in 
at least three deaths.
    At the time of the fatal pedestrian crash in Arizona, Uber 
had logged approximately 3 million autonomous miles. While that 
may sound like a large number, consider that every year 
Americans drive 3 trillion miles. During those 3 trillion 
miles, on average, a person was killed in a traffic collision 
every 85 million miles in 2016. In comparison, Uber's AV 
fatality rate is 28 times that of human drivers. This 
highlights just how little proof there is that these systems 
are safe or certainly not safer than human drivers presently.
    Statements regarding reductions in congestion and 
improvements in the environment are similarly dubious. There is 
a wide variation regarding estimates of changes in vehicle 
miles traveled. Often absent from these urban planning utopias 
is the reality that AVs may bring the possibility of 
hypercommuters living several hours outside of cities. Also 
frequently missing is the likelihood of empty vehicles circling 
aimlessly between rides.
    What we do know is that after the March 23rd Tesla crash in 
California, U.S. Highway 101 was closed for nearly 6 hours. The 
battery was on fire, emitting dangerous chemicals, and the 
battery reignited 5 days afterwards. That paints a very grim 
picture.
    The fact is that rushing to deploy AVs provides no guaranty 
of the benefits claimed and may come with significant costs. 
Despite these uncertainties, the USDOT has chosen to take a 
hands off approach by issuing only voluntary guidelines. 
Therefore, Advocates has put forth several reasonable proposals 
which are outlined in my written testimony.
    Regarding infrastructure improvements, we offer the 
following three recommendations:
    First, for road design. The lynchpin for much of the 
guidance in numerous infrastructure manuals is a human behind 
the world. From sight distances for signs, to lettering, to the 
curvature and super elevations of roads, infrastructure design 
criteria has been developed to enable a safe operation of 
vehicles by human drivers. AVs may require that these basic 
premises be modified in order to serve a dual purpose for both 
human and computer driven vehicles.
    Second, roadway deterioration. We have all experienced road 
signs or markings that have been damaged intentionally or 
altered or blocked by objects. Research shows that a stop sign 
can easily be manipulated with a few pieces of tape, which is 
then read by the AV to be a 45 mile an hour speed limit sign, 
resulting in the AV speeding up instead of stopping. This is 
why Advocates is recommending AVs be subject to a vision test. 
When a person goes to a DMV to get a license, he or she has to 
take a vision test. With the AV now being the entity that is 
seeing the road, AVs should have to demonstrate that they can 
see and respond to the roadway challenges.
    Third, connected vehicles. These technologies allow a 
vehicle to send and receive communications with other vehicles, 
known as V2V, or the infrastructure, known as V2I. They will 
likely help fill gaps in AV performance. For example, V2V 
communication can provide safety applications for Forward 
Collision Warnings which alert drivers to stopped or slowed 
vehicles ahead. Advocates has filed comments in support of 
mandating V2V; however, the rule continues to languish at 
USDOT.
    To conclude, this hearing is very well timed, considering 
that last week the NTSB released their preliminary report on 
the fatal Tesla crash in California this March. It appears 
likely that infrastructure components may have been a factor in 
that crash. As such, we urge the Senate to allow time for the 
NTSB to finish its pending investigations on AV systems. There 
is a great deal to be learned from our Nation's leading 
investigators, and there is no reason to rush through 
legislation, especially by tacking it on to an unrelated bill.
    I look forward to your questions.
    [The prepared statement of Mr. Kildare follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Senator Barrasso. Thanks so much to all of you for being 
here. I look forward to starting the questions in a second.
    I do, first, ask unanimous consent to enter into the record 
a letter from the Alliance of Automobile Manufacturers, which 
explains the benefit of a development in eventual deployment of 
autonomous vehicles.
    Without objection, that will be submitted.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. Mr. Panos, as you discussed in your 
testimony, the Wyoming Department of Transportation is 
participating in the U.S. Department of Transportation study to 
assess the effectiveness of connected vehicle technologies 
really under real world conditions, because that is what this 
is all about. How has this effort helped WYDOT anticipate the 
changes that are going to be needed so that we can get the 
greatest benefit from connected vehicles and AV implementation?
    Mr. Panos. For us, the participation with USDOT and with 
our partners on the project is really a benefit to us because 
our focus is on safety, and the idea that we have the ability 
to deploy technology in a variety of different environments. As 
you know, the pilot study is not just about Wyoming, but it is 
also inclusive of New York City, the New York area, and also 
Florida; and working in these kinds of deployments and these 
kinds of environments is extremely beneficial to studying the 
effectiveness of the technology and the various conditions 
within which it is going to have to operate, so that is very, 
very important.
    As I described both in my written and oral testimony, we 
have already started to deploy not only the technology within 
our own fleet, but with freight vehicles as we move forward, so 
I think that the ongoing funding by USDOT, ongoing funding by 
the Federal Highway Administration toward going to Phase 2, 
Phase 3, toward further deployment of these technologies is 
critical for us to improve safety.
    In our particular case, we have a great deal of freight 
that moves through the southern part of our State, and our 
focus is on not only maintaining a safe environment for that 
freight to move, fewer fatalities, fewer crashes, et cetera, 
but fewer closures of that road system so that freight can move 
from the western side of the country to the eastern side of the 
country and vice versa.
    So, for us, these connected vehicle programs are an initial 
step toward connected braking and then automated vehicle 
programs which are necessary to save lives.
    Senator Barrasso. In addition to the study that you are 
actually involved in, are there any further efforts or follow 
up activities that we ought to be thinking about or pursuing to 
get more information?
    Mr. Panos. Yes. I think that FHWA recently announced a 
series of national meetings to discuss automated vehicles and 
infrastructure. Congress can encourage the FHWA to move forward 
promptly on those meetings.
    AASHTO has been working hard to bring people together for 
years and has updated its coalition of public and private 
sector entities to form the Cooperative Automated 
Transportation Coalition, or CAT Coalition. Those types of 
efforts should be encouraged. They will help bridge some of the 
current gaps in the collaboration among all of the various 
stakeholders.
    Senator Barrasso. Mr. Bhatt, everybody has testified to 
this. In order to successfully prepare our roadways for 
autonomous vehicles, State and Federal agencies are going to 
need to engage in proactive preparation, rather than just 
simply reacting. What do you perceive as kind of the primary 
regulatory challenges or opportunities that are going to 
determine the infrastructure and agency readiness as the use is 
adopted and expanded for autonomous vehicles?
    Mr. Bhatt. Thank you, Chairman, for that question. It is a 
great question to ask right now because I think that what you 
hear in the testimony across this panel is there is both great 
opportunity and great challenges that we need to understand, 
and I think it is a great time for this Committee, Congress as 
a whole, and the Administration to be looking at these issues.
    From a regulatory standpoint, I think what we need right 
now is a Federal framework so that we don't have 50 different 
States and then along with other cities and jurisdictions sort 
of developing their own standards when it comes to the 
operation of these vehicles. I think that that is one of the 
things that we are looking for.
    I also think it would be important for us to recognize that 
this is not just about the United States; that there is a 
global competition around both vehicle manufacturing and 
communication technologies where other countries are investing 
and actually cite the fact that there is no consistency across 
the United States as a competitive advantage for companies to 
come and manufacture and test in those places.
    So, I think that what we want to make sure is that we 
preserve the historic, that we have had for several decades, 
relationship of manufacturers make the vehicles and then local 
jurisdictions decide how they are operated, but we need a 
Federal framework to make that happen.
    Senator Barrasso. Thank you very much.
    I have a lot more questions, but Senator Rounds, let me go 
to you first.
    Senator Rounds. Thank you, Mr. Chairman.
    As I listened to the discussion here, I noted that we have 
folks from New York, Wyoming, Colorado, and when I think about 
the differences between the way each of your different 
transportation commissions would respond to what your needs 
are, and I am not certain that, at the Federal level, we can 
determine for all of them what they need to do and the priority 
in which they need to do it.
    At the same time, I guess I am going to ask the loaded 
question, and that is with regard to the Highway Trust Fund. Is 
there anybody that thinks that we should have a subsection 
dedicated to the advancements of these particular capabilities 
within the Highway Trust Fund? Remembering that you are 
probably taking money away from bridges and road repair, road 
construction, and so forth. Where do you put this at?
    Yes, sir.
    Mr. Bhatt. I am happy to take the loaded question, and I 
appreciate your perspective that it is a very different 
country, whether it is New York City or Wyoming, Colorado, or 
Washington, DC. And I appreciate the idea that we recognize 
that.
    I think that from the ITS America perspective, which is a 
coalition of State DOTs, cities, private sector companies, and 
research institutions, I think, with regard to the Highway 
Trust Fund, recognizing the challenges that are there, it is 
hard to say, well, how do you fund important technology 
investments, and at the same time, many States are struggling 
with this idea of we can't maintain the existing roads and 
bridges that we have.
    So, I would say that our association would say, along with, 
I think, a broad bipartisan chorus, that there does need to be 
more funding available for transportation, but I think that 
what I would focus on is the ability of technology to leverage 
existing investments.
    We all talked about pavement markings. Striping is a big 
deal obviously for the performance of autonomous vehicles. In 
Colorado we had the Eisenhower-Johnson Tunnel, the highest 
interstate tunnel in the country, and snow can fall there 
virtually any time of the year. Those plows go out, and a 
stripe is just really paint on asphalt. You plow it enough 
times, it comes off. What they have deployed in Colorado now is 
almost like a recess within an LED light inside it, so when 
that plow goes over it, it doesn't scrape away paint, it 
doesn't scrape away anything, and it is a much safer piece of 
infrastructure.
    And the next step of technology is--I have talked to 
companies that want to put a little RFID chip in there so that 
that RFID chip can broadcast to a plow that I am here, so if 
you can't see the roadway, that you at least understand where 
the lane is.
    So, whether it is signals through the SPaT Challenge that 
can be upgraded, I think that there are many ways that we can 
see that technology can leverage the existing investment. We 
currently use 2,000 vehicles per lane per hour for what a lane 
of interstate will move. Once those vehicles are talking to 
each other, you can cut down on stopping distance. I have seen 
estimates where that can go to 4,000 or even higher. So, I 
think we want to begin the conversation around how do we use 
investment to leverage both the existing infrastructure and the 
technology investment.
    Senator Rounds. Interesting. I am just curious. I look at 
the different weather conditions that are out there right now, 
and my first thought was is perhaps the first step would be to 
provide more information to both drivers and driverless 
vehicles, and a lot of that data could be used by both, as 
opposed to simply focusing on the autonomous vehicles.
    You mentioned snow. I am thinking of the percentage of the 
time in which our rural highways and places like in South 
Dakota, where I am from, where we are not going to have the 
visibility of stripes, we are not necessarily going to have the 
visibility of a yellow line down the road, and those are the 
times in which these accidents, in many cases, occur, adverse 
weather conditions.
    Then I look at New York, and I recognize the expertise of 
your taxi crew there to actually work its way down through a 
5th Avenue challenge is something else, and it is something 
that very few of us in South Dakota get an opportunity to 
experience, nor want to experience.
    So, it would appear to me that what we can do to provide 
additional data is something that would help everyone, 
including, and I suspect as Mr. Kildare had indicated, the 
ability here to provide additional information that is actually 
beneficial to both the driver and a non-driven vehicle. I am 
wondering if the focus perhaps shouldn't be more, to start out 
with, making sure that we have the ability to deliver ongoing 
data, such as with a stop sign that could be modified. But if 
you have a GPS that indicates clearly that there is a stop sign 
expected at that location, to at least show if there is a 
difference between what is perceived with the visible 
perception versus what the GPS should be there would throw out 
the proverbial red flag.
    And then I will shut up.
    Would you agree with that, Mr. Kildare?
    Ms. Trottenberg. I would certainly jump in. From the New 
York perspective, that data is key. And as you heard from my 
colleague in Wyoming, New York is also participating in the 
Connected Vehicle Pilot, and the information that we are 
gathering is going to be very, very crucial.
    That is why we think it is important, as automated vehicle 
testing goes forward, that jurisdictions, cities and States, 
that we work out some kind of data sharing arrangement, because 
that data will be crucial to us in making some of these 
infrastructure decisions and seeing where there are safety 
challenges, places we need to improve the efficiency of our 
roadways.
    You know, you are talking about, in a rural context, snow 
covering up your markings, in an urban context, particularly in 
a city like New York, we have a ton of infrastructure 
underneath our streets. On any given day in New York City there 
are a thousand holes being cut into our streets, so the notion 
that our striping will always be pristine and visible, I think 
it is not likely.
    Senator Rounds. Or parked on.
    Ms. Trottenberg. Exactly.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Well, thank you very much, Senator 
Rounds.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks much, Mr. Chairman.
    Welcome to all of our witnesses, especially Shailen Bhatt, 
who used to be our secretary.
    Shailen, it is great to see you, and thanks for bring your 
friends with you here today.
    I apologize for being late. We all serve on a number of 
committees, and sometimes we just bounce back and forth easily, 
but we are doing a markup, a business meeting in the Homeland 
Security Committee today with a big agenda, and we had exactly 
a quorum; and if I had left, we would have lost the quorum and 
not been able to proceed, so I appreciate your indulgence here.
    I have a short statement I would like to share with all of 
you.
    This important hearing, we are grateful for it, Mr. 
Chairman. I thank our staffs for the work that has gone into 
preparing for it.
    Harry Truman used to say the only thing new in the world is 
the history forgot or never learned. Think about that. The only 
thing new in the world is the history we forgot or never 
learned.
    Today we are here to discuss autonomous vehicles, which do 
seem like a very new thing, but over 100 years ago, before the 
advent of driverless cars, the new thing was the horseless 
carriage, or as we now call them, cars.
    Reflecting on the early history of cars and automobiles, 
trucks, reflecting on that early history may provide some 
lessons as we plan for the deployment of today's new 
technology. I doubt there is anyone here who would deny the 
tremendous benefits of the development of cars, trucks, vans 
has had on our society and our economy.
    These vehicles connect urban and rural communities; they 
provide new access to schools, to jobs and hospitals. Cars and 
trucks have allowed us to travel farther, and to ship and 
receive goods more quickly and more cheaply.
    It is also fair to acknowledge that these mobility 
improvements have come with some costs. We had to make space in 
urban areas, often at the expense of existing housing, for 
better infrastructure in the form of roads and highways. Think 
I-95 going through Wilmington, for example. Motor vehicles 
quickly became a major source of emissions and smog, 
contributing to the threat of climate change, as well as public 
health crises, such as asthma.
    The advent of early automobiles also posed a major safety 
challenge, and infrastructure was required to ensure that they 
operated more safely. I am told in the first decade of the 20th 
century there were no stop signs; there were no warning signs; 
there were no traffic lights; there were no lane lines; there 
were no streetlights; there were no brake lights; there were no 
driver's licenses; no seatbelts; no posted speed limits. None 
of these traffic controls and safety devices had been 
developed, so communities were unprepared for this new 
technology, new vehicles that came along about 100 years ago.
    As a result, passengers were at risk. I am told, in 1910--
more than 100 years ago--there were 45 deaths for every 100 
million miles traveled. Forty-five deaths for every 100 million 
miles traveled. We have been able to bring that number down to 
a number just about 1 death per 100 million miles traveled 
today thanks to a variety of things, but thanks in part to 
Federal motor vehicle safety standards and investments in safer 
roadways and safer vehicles.
    I think most of us would agree that the number even one, if 
you happen to be that one, that is one too many. The number is 
still too high, but in 2016 I am told almost 40,000 people were 
killed in crashes on our roads across this country.
    I hope that autonomous vehicles will help us reduce 
fatality rates even further. Over 90 percent of traffic 
fatalities are the result of driver related errors, including 
from drunk, drowsy, or distracted driving. They may be reduced 
with driverless cars. That would be a good thing.
    Indeed, there is no doubt that this emerging technology has 
the potential to enhance safety, to enhance mobility, reduce 
congestion, and improve excess. But realizing these benefits 
will depend on two important things: No. 1, how the technology 
is deployed, and also how much we invest to ensure that our 
streets are ready for this new technology.
    One of our major goals should be to avoid the mistakes of 
the last century, when cars were deployed into our communities 
without any of the infrastructure standards, the traffic 
devices, the safety protocols, the environmental protections 
that we only later realized were essential.
    Our hearing today will help us better understand how we can 
prepare for this transformative technology so that we can 
realize its many potential benefits, but also minimize the 
costs associated with cutting corners in our zeal to see this 
exciting technology deployed.
    We need to better understand the readiness of our 
infrastructure and our traffic controls. For instance, we know 
that autonomous vehicles can have difficulty navigating certain 
road conditions, such as poor lighting, such as bad weather, 
such as work zones. So how do we mitigate with these 
challenges?
    Connected autonomous vehicles may travel more closely 
together, which could reduce congestion. That would be a good 
thing. But how will a connected series of heavy trucks affect 
the weight limits of highway bridges? That could be a dangerous 
thing.
    Road designs and traffic signs have been optimized for 
human comprehension; however, we look at the very simple 
changes that can be made to a stop sign that could interfere 
with an autonomous vehicle's ability to accurately understand 
that same sign. I think we have a poster. If you look at the 
stop sign, with just a couple markings that could be made to 
the stop sign, it turns into not a stop sign, but a speed limit 
that says you can go 45 miles per hour through this 
intersection. That would be scary.
    So, we need to ensure that vehicle computers will read 
signs like that, particularly when graffiti or other 
modifications can fool an autonomous vehicle into thinking that 
a stop sign is actually a speed limit sign. We all know, as 
much as we might hope that something like that is not going to 
happen, we know that it very well could.
    We may need to digitally connect our vehicles to our 
infrastructure. How much will that cost? How do we ensure that 
it is compatible with all autonomous vehicle technologies?
    Finally, technology is changing at a rapid pace, we know 
that, but State and local agencies must plan now for 
transportation investments that won't be made until much 
further down the road.
    How do we align those timeframes and integrate assumptions 
about autonomous vehicles into long range transportation plans?
    Those are just a few of the many questions that I believe 
we need to be examining closely as we prepare our 
infrastructure for more widespread use of autonomous vehicles.
    I look forward to your testimony. Apologize again for being 
late, but better late than not at all. Now I am here, and I am 
in the game.
    Thanks so much, Mr. Chairman.
    Senator Barrasso. Would you like to proceed with questions, 
or should I go to Senator Capito?
    Senator Carper. I would go to Senator Capito.
    Senator Barrasso. Senator Capito.
    Senator Capito. Thank you. Thank you, Mr. Chairman.
    And I thank all of you.
    Mr. Panos, like West Virginia, Wyoming is a largely rural 
State with difficult and mountainous terrain. Whenever I hear 
and think about autonomous vehicles, I think about going up 
Bridge Road, which is where I live, to my house, and I am like, 
I am not getting in an autonomous vehicle and doing those 
curves.
    We also have difficulty with in and out of our service, 
satellite service or Internet service. It is very spotty and 
can be unreliable. In the best case unreliable, and in the 
worst case, non-existent.
    I understand that in Wyoming your testing is usually in 
ideal weathers and more flat circumstances, but you are doing 
some testing in the mountainous regions, so I am interested in 
knowing how that is going and what type of challenges that 
presents in terms of autonomous vehicles.
    Mr. Panos. Thank you for the question. In Wyoming we are 
testing not only in open areas, but also in mountainous areas. 
We have a very diverse terrain. We also have very diverse 
weather conditions. So, we are testing the infrastructure 
equipment not only for its ability to speak with vehicles and 
for vehicles to speak with it, if you will, but also to test it 
in terms of its nature as it relates to the various geologic 
and weather sort of conditions that we have there.
    What we have found is, for us, we use DRC-enabled equipment 
that helps in our communicating with the vehicles. Our focus is 
on connected vehicles at this point, and connected freight 
vehicles, specifically.
    Senator Capito. So, when you are saying connected, are you 
saying connected to the device that is on the infrastructure, 
or are you talking about connected in a broadband, wireless 
way?
    Mr. Panos. Well, to use your examples, both.
    Senator Capito. Both.
    Mr. Panos. They are connected vehicle to vehicle and then 
vehicle to infrastructure. And then the infrastructure is 
connected back to a central location where we actually can send 
messages to those vehicles----
    Senator Capito. So you have to have connectivity.
    Mr. Panos [continuing]. And transmit them to others. Excuse 
me; I apologize. And DSRC helps us to do that, but I think that 
what we believe will be enhanced is not just the type of 
technology that we use, because we could use a variety of 
technology, but really the type of messages and advisories that 
we are pushing. Advisories about crashes, advisories about 
weather that are up in front are the most effective that we can 
see.
    But I must say that this idea of developing a collaboration 
amongst all of the stakeholders associated with the type and 
use of technology, whether it be connected vehicle or 
autonomous vehicle, is the key, and these collaborations, and 
having Congress support those collaborations, is essential for 
us as we go forward not just as Wyoming, but as all State DOTs.
    Senator Capito. I am also serving on the Commerce 
Committee. We had a very vigorous debate on AV technology and 
cars and trucks, and should trucks be included in the first 
sort of strike that we went in terms of trying to figure out 
the best regulatory environment to move forward. Trucks were 
not made a part of that.
    I am wondering if any of you all, in your testing or 
exposure, has been working with large truck vehicles and what 
you are finding there.
    Mr. Panos. I will just mention, if I may, Senator, that 
that is the focus of our connected vehicle program, is freight 
specifically, and freight connected not only to the 
infrastructure and to one another, but freight connected to our 
emergency response vehicles so that we can reduce the time that 
an emergency responder can arrive to the scene of an accident 
or some other type of incident.
    Senator Capito. OK.
    Mr. Bhatt. Senator, obviously, the freight component is 
critical.
    Senator Capito. Right.
    Mr. Bhatt. One of our members is Peloton that is testing 
truck platooning, where you use connection between vehicles to 
reduce the space that is needed, reduce the fuel economy. In 
places like Wyoming and in Colorado, where you have long 
distances, it can provide a lot of benefit, safety benefits.
    Another issue in Colorado, over Red Mountain Pass, we 
sometimes have truckers coming into the State that have never 
been there. There is an issue on I-25. Now they are using their 
GPS to get around it; they end up on Red Mountain Pass, and Red 
Mountain Pass there are a couple of curves where, if you don't 
negotiate them properly, it turns into a pretty significant 
situation. We are looking at deploying infrastructure to 
vehicle communication so that even if the truck driver isn't 
aware that it is a safety issue, the truck can be told to slow 
down to no more than 10 or 15 miles an hour for some of these 
curves.
    Senator Capito. Interesting. Thank you very much.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Carper.
    Senator Carper. Did you go to Ben?
    Senator Barrasso. Well, it is your choice. You are first to 
go with questions, but Senator Cardin would be next in line.
    Senator Cardin. Well, thank you. Thank you, Mr. Chairman, 
and thank you, Senator Carper.
    This hearing is extremely important, and I thank all of our 
witnesses.
    I have the opportunity to be the Ranking Democrat on the 
Infrastructure Subcommittee with Senator Inhofe, and as we are 
looking at the infrastructure authorization for America on 
transportation, clearly the technology issues need to be part 
of those conversations, so I think this panel is particularly 
important. We all support the enhanced use of technology to 
make transportation more efficient, to make it more friendly, 
to make it safer.
    Certain challenges are brought out by this, and you have 
already mentioned some. How this comes out of the maintenance 
budget I thought was an interesting concept, as compared to 
construction. We don't have enough resources right now into the 
transportation, so unless we have an adequate funding source, 
it seems to me that technology is not going to get the 
attention it needs in the planning of infrastructure.
    Second, I would point out that technology will help make 
transportation more efficient, which is what we want it to be, 
more efficient. But as we make it more efficient, the revenues 
that are coming in to support the infrastructure gets lower, 
gets less. So, once again, it is so important as we look at 
developing an infrastructure program for this country, that we 
take technology into consideration so that we have adequate 
resources in order to take advantage of the benefits of 
technology.
    I want to talk about a couple specific issues. I was 
listening to the messaging boards that you talk about. Very 
important. If there is a serious issue, motorists need to be 
advised so they can plan alternative routes, they can plan 
safety decisionmaking.
    But I find that many of these messaging systems are putting 
up messages that are not terribly relevant to the driver, but 
do cause the drivers to slow down, causing congestion and 
sometimes a safety problem in and of itself.
    Is there a protocol as to how these messaging boards are 
located and whether they should be used indiscriminately or 
when it is not involving an important message for the driving 
public?
    Mr. Panos. Senator, could I respond to that? Thank you for 
the question. There is a protocol, actually, that we have 
developed with the Federal Highway Administration for the 
siting, construction, and operation of DMS signs, digital 
messaging signs, throughout our State, and we have internal 
groups which actually look at the messaging that is going up, 
plus we have a 24/7 online traffic management center that 
actually executes the messages to the signs and makes them as 
real time as possible. So, for instance, if we were to have a 
hail incident that would move through or actually blow through 
the State from, let's say, west to east, the message signs 
would change and follow the hail incident as it moves across 
the interstate highway warning----
    Senator Cardin. And that is beneficial. I am for that. But 
my concern, I will look at my app as to traffic problems on I-
95 as I am driving, and I will see either yellow or red where 
the messaging signs are located, and I know the people are 
slowing down in order to read the messaging signs. Fine if it 
is important, but if it is not--some of the signs will say have 
a happy holiday weekend, drive safely, or something like that, 
which I don't think is worthy of creating a particular problem 
of a slowdown because people are slowing to read the message 
signs.
    Mr. Panos. Senator, if I may, again, we have a protocol so 
that we generally would not be putting up non-relevant 
information on the signs relative to that particular area of 
the State. Remember, I-80 in our State, where there are a lot 
of these DMSes, is 400 miles long, so we would put different 
messages, but also safety messages; and those are the only two 
things we are allowed to put on the signs based on the 
protocols that at least we use in Wyoming.
    Senator Cardin. Appreciate it.
    I want to cover one other subject, if I might, and that is 
vulnerable populations, bikers, pedestrians. As we develop 
these new technologies, what protections are there for what 
this Committee has brought forward under the TAP program to 
promote pedestrian and bicycle opportunities? If you are now 
going to have automatic technologies, how do we protect the 
bikers and walkers?
    Ms. Trottenberg. I will take a crack at that, Senator, 
because I think from the New York City context that is an 
extremely important question. For our Federal pilot, the 
Connected Vehicles program, that is one of the issues we are 
very much looking at; it is not just vehicles talking to 
infrastructure, it is how can we make roadway safety better for 
pedestrians, for cyclists. That is part of why we are so 
interested in having some robust safety protocols as we start 
the testing. Europe is looking at requiring certain pedestrian 
and cyclist recognition technologies and why we are interested 
in having good data sharing, so we can learn what these 
vehicles are seeing. For us in New York, pedestrian and cyclist 
safety is a huge, huge priority.
    Mr. Kildare. Thank you very much for the opportunity to 
respond. I think we saw the dangers writ large by what happened 
with Uber and the crash that occurred. There was mention 
earlier about edge cases. The problems we are seeing with AVs 
at this time are not edge cases. A pedestrian crossing a road 
at night is not a surprise. A fire truck being stopped on a 
road is not a surprise. A tractor trailer making a left turn 
across traffic is not a surprise. These aren't edge cases.
    So, we need to collect a lot more of that data. We can do 
that during testing in controlled ways, but without allowing 
the system to put people in danger. You can run these systems 
with a human driver actually doing the driving, collect the 
data streams, analyze it, and see what they are seeing. If we 
see that the machine would have made the decision to drive 
toward a bicyclist, we would know that without actually 
endangering the bicyclist and letting the machine drive toward 
that bicyclist.
    The same thing we saw about the infrastructure problem, 
what happened with the latest Tesla crash. We would have the 
data stream saying, hey, the vehicle would have liked to have 
driven into this roadside hardware, but it didn't because the 
human driver was always engaged and always doing the driving. 
So that data is absolutely crucial to collect and have.
    Senator Cardin. Thank you all very much. Appreciate it.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Booker.
    Senator Booker. Thank you very much, Mr. Chairman.
    I have a lot of concerns about just the rising levels of 
traffic fatalities on our roads. It is stunning to me that we 
have this kind of carnage. 37,461 people were killed on our 
Nation's roads in 2016 alone. And we seem to have--maybe 
popularly--seem to have this resignation that this is just a 
normal, and it shouldn't be. You know, when you see lives 
devastated like we have seen in New Jersey very recently, 
especially with the horrible crash involving a school bus, I 
think we have to start having more of a conviction to prevent 
these tragedies from happening.
    So emerging sorts of technology is hopeful to me, that 
there might be a lot of possibilities. Autonomous vehicles 
present, to me, first and foremost, a chance not to ease 
congestion; the biggest thing that excites me is the potential 
to save lives. There are other collateral benefits, reducing 
emissions. If you live between New York and New Jersey, one 
side of the river or the other, you understand how traffic is 
eroding the quality of life of people.
    So, I just want to make sure that we are making the kind of 
investments in our infrastructure that we should be making, and 
I want to start with Mr. Kildare, which is the greatest name, 
man, you have, by the way. If I had that name, I would have 
made it to the NFL in football. The name alone would have 
gotten me through the combines.
    Senator Barrasso. Or he could have been a doctor on 
television.
    Senator Booker. Exactly. Exactly.
    America's roads continue to receive a D from the ASCE, 
which noted that 20 percent of the Nation's highways alone had 
poor pavement conditions. The Federal Highway Administration 
estimates that $142 billion in capital investment would be 
needed on an annual basis over the next 20 years to get our 
conditions to where they should be.
    What is, again, compelling me is that, tragically, 
approximately one-third of road fatalities are caused in part 
due to deficient infrastructure.
    The first question, Mr. Kildare, is whether it is State 
DOTs, local governments, transit agencies, the whole list of 
sort of multiple crisscrossing responsibilities, the 
transportation sector is going to continue to wrestle about how 
to deal with the new technologies that we are seeing and 
integrate them in an effective way, and to make this, capital 
investments are going to be needed in order to accommodate 
connected and autonomous vehicles, cars, buses, trucks, and the 
like.
    So, I just want to know what would you recommend in terms 
of the investment that you think Congress needs not only to 
accommodate the issues I am talking about, but even just to 
compete globally to other nations that seem to be making 
infrastructure investments much more rapidly than we are.
    Mr. Kildare. I believe that the Federal coordination is 
going to be a critical part to this. A lot of our manuals and a 
lot of the instruction that we currently have of how we spend 
our funds and what our designs are are left to the local level, 
and that is important. It is important because we have the 
difference between rural and urban and the different 
experiences that we have.
    However, things are going to change as we bring in 
autonomous vehicles. A tractor trailer trying to find a lane 
line in Wyoming is the same as the system that is trying to 
find a lane line in New York City; it needs to know that that 
is a lane line. You can travel from place to place and see that 
lanes here are 12 foot wide; this one is 8 foot wide. Lines are 
10 foot; they are 15 foot. Everything starts to change because 
we have allowed this engineering judgment. And it has been 
critical up to this point, but it is also because they were 
critical to have the engineering judgment to change based on 
your area.
    When we start having autonomous vehicles, it starts to 
level that playing field. Finding the right technology and 
working together so that we know what is the best way we can 
get each car to know that that is a lane line. What is the best 
way to get each car to know what stop signs are and not have 
the confusion that we saw from the stop signs that Senator 
Carper had put up? How do we get everyone organized on that so 
we are making the best investment, especially considering that 
we need to do both for a long time?
    We foresee for a long time coming we are going to have both 
human drivers and autonomous vehicles, and the last thing we 
want to do is spend our money heading toward fixing one problem 
and then creating problems for the other.
    Senator Booker. I appreciate that.
    I want to turn in the seconds I have left, and I see 
Senator Markey has come, to the DOT Commissioner for--I am 
sorry, which city is that again?
    [Laughter.]
    Senator Booker. It sits in the shadow of Newark, New 
Jersey; I understand that.
    [Laughter.]
    Senator Booker. It is tough. It is tough. You and Senator 
Schumer have city envy, I understand.
    Senator Cardin asked the question about the challenges as 
this technology comes in, and the excitement for me about our 
metropolitan area is tons of new technology could really ease 
what is an infrastructure crisis that we have in our region. 
So, I wonder if everything from AVs to, frankly, just drones 
alone could take a lot of the traffic off of our streets, and 
in places like New York City, drone technologies might be sort 
of a possible help.
    I said this to the head of the FAA for a while, I said, 
look, they were choking sort of the ability for localities to 
experiment with new technologies, and I felt, overregulating 
them. France, for example, is doing so much more on drones than 
we were doing because they had better regulatory structure. And 
I said, if you guys were around during the time of Wilbur and 
Orville Wright, we would have never gotten off the ground.
    So, I am just wondering, as this person that understands 
the critical crisis we have. I live 12 miles, 11 miles from 
Manhattan, and it can take me upwards of 2 hours to traverse 
that. New Jersey transit, and again, all the work I have been 
doing on the rail tunnels.
    We are just in a crisis proportion. So how are you feeling 
in the ability to sort of embrace innovation, to create 
sandboxes for different technologies that you think are 
critical? And are there things that we can learn from your 
experiences in one of the most congest metropolitan areas on 
the planet Earth, the greater Newark metropolitan area?
    Ms. Trottenberg. It is great to be in the greater Newark 
area.
    You are right, Senator, congestion for us in the entire 
metropolitan region is a huge, huge challenge. The potential of 
AVs is that they can reduce congestion, but I can just say 
right now, I think the New York City experience--and it is 
probably true across the river, we are finding services like 
Uber and Lyft, which say they will eventually be a ridesharing 
system, right now they are just adding more cars to our 
streets.
    Senator Booker. Yes.
    Ms. Trottenberg. And in midtown Manhattan, travel speeds 
are really slowing, and it is a real challenge. I am actually 
fortunate right now to be chairing Transcom, which is actually 
a coalition of New York, New Jersey, and Connecticut 
transportation and enforcement officials. It was actually the 
group that got Easy Pass started throughout the region. And we 
are actually trying, as a region, to look at some of what are 
these next generations of technologies and bridge one of the 
challenges we all face, which is how do we bring all our 
jurisdictions together, New York, New Jersey, the Port 
Authority, the MTA, New Jersey Transit. Because there is both 
the technology piece and the jurisdictional and governance 
piece in making sure, to the extent that we are all pursuing 
these technologies, they can talk to each other and we can work 
together.
    Drones I think, for New York City, our airspace is pretty 
dense. I don't know if we are ready to go there, but we are, as 
we have said here today, doing connected vehicles and starting 
to look at, again, things we could deploy regionally, because 
we are one region.
    Senator Booker. Yes.
    And just a question for the record: Where do the Jets and 
the Giants play?
    Ms. Trottenberg. In the region.
    [Laughter.]
    Senator Barrasso. Case closed.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, once again.
    Once again, this is an area where Senator Booker and I 
compete. We compete. I just had him check it out. New York has 
the second worse congestion and we are No. 7 in congestion, 
Boston. One place where we would like to be behind New York in 
this one category, maybe the only category. And Washington, DC, 
is No. 6.
    So, between New York, Boston, and Washington, we have a lot 
of reason to solve this problem. It is consuming a large 
percentage of the discretionary time that we have left on the 
planet, just sitting in vehicles and waiting to get to places, 
and this new revolution is really computers on wheels, just 
going down the street. And these computers on wheels could soon 
be able to send speed and direction data to other vehicles, 
roads, bridges, other transportation infrastructure, to improve 
safety, reduce traffic, improve efficiency.
    In the very near future we may be spending Federal highway 
funds to embed sophisticated sensors into our roads and our 
bridges, and like the everyday computer and smartphones, these 
transportation technologies could be vulnerable to cyberattacks 
if appropriate safeguards are not put in place up front.
    Just a few years ago hackers remotely took control of the 
brakes, steering, and acceleration of a Jeep Cherokee. Chrysler 
had to recall 1.7 million vehicles to fix this cybersecurity 
problem. If we are to imagine a world where massive 18-wheelers 
carrying hazardous materials and minivans full of children can 
drive themselves, it shouldn't be a stretch of the imagination 
to envision that these vehicles may be targets of cyberattacks. 
And unlike many technologies that are already deployed, we have 
the unique opportunity to address cybersecurity threats before 
they emerge.
    Mr. Kildare, do you believe that we should proactively 
ensure that robust cybersecurity protections are built into the 
design, construction, and operation of these transportation 
technologies?
    Mr. Kildare. Absolutely. It is a significant concern. It is 
also a big concern that we have about the pending legislation, 
the AV START Act, is that there is no consideration for 
requirements. I believe the only thing that is in there is a 
recommendation that companies have a game plan, but not 
necessarily executed or follow any standards that are 
available. We have great examples of how this can be done in 
lots of other industries. We need to start taking those and 
learning those lessons from history about how we make these 
things secure.
    Senator Markey. Beautiful. I agree with that, and that is 
why I have introduced legislation with Senator Blumenthal, the 
SPY Car Act, that directs NHTSA to establish Federal standards 
to secure our cars.
    Mr. Kildare, do you believe that it would be helpful if 
NHTSA, the National Highway Traffic Safety Administration, 
created a cybersecurity certification program for vehicles, 
similar to NHTSA's five-star automobile safety rating program? 
The program would reward manufacturers who adopt the strongest 
protections, while also helping consumers make more informed 
decisions when purchasing or riding in vehicles.
    Mr. Kildare. Absolutely. I believe the benefits that we 
have seen from the NHTSA five-star program have shown how we 
can encourage competition in the goal of getting safety out the 
forefront. The same thing can be done with the cyber dashboard 
and looking at cybersecurity. We always want to see it move 
toward regulation at the end, and we have seen that happen out 
of the five-star program as well, so it is an excellent goal.
    Senator Markey. Now consumers say, oh, how many miles per 
gallon? We can see that. What is the safety rating? They can 
see that. And going forward, this cybersecurity protection is 
also going to be increasingly important because it is a 
computer riding down the street, and there is a sinister side 
to cyberspace. It is the best of technologies and the worst of 
technologies simultaneously. There is a Dickensian quality to 
it; it can enable, it can ennoble, it can degrade, it can 
debase. We just saw that in the Facebook hearing. We continue 
to see it. If we don't protect against the downside, then bad 
things happen, so it is important for us to build in the 
cybersecurity protections now.
    Finally, the only thing more quintessentially Boston than 
cold weather and the Boston Red Sox is traffic. But technology 
could help address traffic issues by allowing communities to 
more accurately and comprehensively monitor traffic patterns 
and then take preventative measures--rather than reactionary 
measures--to alleviate congestion.
    How can these sophisticated transportation technologies 
help us be more efficiently traveling, especially in the 
densely populated urban areas of the country?
    Ms. Trottenberg. I guess I will speak for densely populated 
urban areas. I think, again, sort of speaking of the Dickensian 
nature of these potential technologies, as you have heard, they 
can potentially enable vehicles to travel together more 
closely, to anticipate obstacles in the roadways, reduce 
crashes and accidents, which obviously has a big effect on 
moving traffic.
    I think it is certainly true in the metropolitan region of 
New York, and Boston as well. I just have to sort of have to 
make a pitch, I guess, for a different committee's 
jurisdiction. For us in the end, the biggest thing that is 
going to help us probably solve our congestion problems is 
going to also be robust investments in our mass transit system. 
The efficiency of what a train can carry, even versus a 
platooning set of vehicles, there is no comparison; the mass 
transit system is always going to be the workhorse for New York 
in terms of carrying the population.
    Senator Markey. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Markey.
    I was just talking with the good Senator about he was too 
young to remember the doctor show that we grew up with, Dr. 
Kildare.
    Senator Carper. Dr. Kildare, Ben Casey, Dr. Casey. There 
were a bunch of them.
    Senator Barrasso. There was Ben Casey, there was Dr. 
Kildare, there was Marcus Welby, MD. That is why I became a 
doctor.
    [Laughter.]
    Senator Markey. If I may add, that is why my wife became a 
doctor, looking at Dr. Kildare. And the beginning of the show 
is the front of Massachusetts General Hospital in Boston, 
Massachusetts. All politics are local.
    [Laughter.]
    Senator Markey. The inspiration came out of that location.
    Thank you.
    Senator Carper. I know his wife. My wife and I are good 
friends, and his wife is an inspiration.
    The Chairman and I were talking just a little bit. I have 
some prepared questions, but one that is just an audible here, 
he represents a big State and a lot of roads, and a lot of 
those roads in his State are dirt roads or gravel roads.
    As Chairman Bhatt may recall as Secretary of Transportation 
in Delaware, we used to have a whole lot of dirt roads and 
gravel roads. We don't have quite as many anymore, but we have 
a lot of roads in the more rural parts of our State that are 
not marked. We still have some dirt roads and some gravel 
roads, but there are a lot of places across the country that 
are more like--not just the town of Wyoming, Delaware, but are 
more like the State of Wyoming, where they have a lot of dirt 
roads and gravel roads.
    How do we handle that? How do we stripe them and get ready 
for just minor, inexpensive infrastructure enhancements that 
will help make autonomous vehicles work in those areas? How 
does that work?
    Mr. Bhatt. So, that is a great point to make, Senator 
Carper, and a great question. One of the things that I know 
Colorado DOT is taking a look at as a research program now, 
working with other partners, SAE classifies autonomous vehicles 
Level 1 through 5 based on their ability to either be driven or 
self-driven.
    What Colorado DOT has begun looking at, or the RoadX 
program, is a roadway classification system. So, we will have 
interstates that have great pavement and markings and signage 
and connectivity, all the way down to a rural dirt road that 
may not even have cellular coverage. Much like when you used to 
buy a cellphone, you were provided a map around where that 
cellphone could work, I think there will be part of our network 
that will never have those levels of connectivity, and it will 
be up to, as Commissioner Trottenberg said, the manufacturers 
to make sure that their vehicles are able to drive on a vast 
majority of our system.
    Senator Carper. But as we all know, there are a lot of 
times when we go around States around the country, we try to 
use our cellphones, and they don't work. I know a lot of people 
with autonomous vehicles say, well, I will take a chance; maybe 
it will work today.
    All right, thank you. That is interesting.
    OK, a question, if I could, for Polly Trottenberg.
    How are you today? Very nice to see you.
    Have auto manufacturers and software developers shared 
information with you about their technologies' reliance on 
infrastructure in order to safely navigate public roads? This 
information seems like it would be vital to the public agencies 
who own and operate our transportation infrastructure when 
setting standards and shaping the deployment of autonomous 
vehicles to ensure both safety and compatibility.
    I guess specifically do you think that access to safety 
evaluation reports would better equip our public agencies in 
their efforts to set appropriate standards for autonomous 
vehicles?
    Ms. Trottenberg. Absolutely, Senator. We think that is 
crucial. I think Mr. Kildare put it well.
    Senator Carper. Dr. Kildare.
    Ms. Trottenberg. Dr. Kildare. It is essential for us, as he 
was saying, as these vehicles hit the roads and start doing 
their testing, to know where they had near misses, where they 
might have interacted with a pedestrian or cyclist. It is 
important for us to get the sense of their safety operations, 
but again, it will help us as well, it will help us look at our 
infrastructure. It is really valuable data.
    Certainly, I think something to be very thoughtful of as 
you are regulating at the Federal level and at the State level, 
for a city like New York, which is such a big and unique entity 
in and of itself, we really want to make sure that we have a 
seat at the table and that we can be part of understanding that 
data and very sensitive to protecting it and the proprietary 
nature of it. But it is really key for us, in our dense urban 
environment, to understand how these safety systems work and 
what they are seeing if they hit our roadways.
    Mr. Doerzaph. I will add a little to that, too. One of the 
neat things about these new vehicles is they come with a 
plethora of sensors that provide very direct information about 
what it is in the infrastructure that creates a difficulty for 
them, which can help an operator really prioritize how they 
spend those public dollars by focusing on the elements. It may 
be as simple as a reflection off of a particular bridge that 
radar over-responds to. So, having not just general feedback to 
where incidents are, but details about what it is that is 
fouling up a particular sensing or perception system is new and 
also potentially very valuable.
    Senator Carper. All right, thank you.
    Mr. Panos, you have been before us before; so has Shailen, 
as have one or two others before us today. Are you a director 
of the Department of Transportation? Is it director, secretary, 
commissioner? What is it?
    Mr. Panos. Director of the Department of Transportation.
    Senator Carper. All right. I want to start out with a 
question for the whole panel, but I will just start off with 
you, if I could.
    Recent studies from the University of Michigan and Ford 
Motor Company suggest that adding AV equipment to cars adds 
weight, aerodynamic drag, and electrical power consumption that 
internally increase to fuel consumption. Because AVs could both 
reduce the cost and increase the availability of driving that 
could induce greater demand and increased vehicle usage, we may 
have more vehicles on our roads. We talked about that earlier. 
Empty vehicles circling city blocks and riders opting for 
longer commutes.
    With on road mobile source emissions already the largest 
source of greenhouse gas emissions, in our economy, are you 
concerned that widespread autonomous vehicle deployment may 
actually worsen this problem? Would you agree that we need more 
data about how these vehicles will be used in the real world to 
better inform our understanding of the role that autonomous 
vehicles will play in transportation sector greenhouse gas 
emissions?
    Mr. Panos. With regards to the idea that we need more 
research dollars and more focus on deployment of connected and 
autonomous vehicles throughout the United States and the 
various environments--some of them represented by some of my 
colleagues here today--I would say yes, that we do need to 
invest more research dollars, and already have. The 
collaborations between the USDOT and AASHTO, the collaborations 
between the industry and government have been robust, but need 
to continue. And the investments in infrastructure research for 
connected and autonomous vehicles need to continue.
    Senator Carper. All right.
    Shailen.
    Mr. Bhatt. Senator, I began my career trying to reduce 
single occupant vehicle trips, trying to get people into high 
occupancy vehicles. The idea that we would have zero occupancy 
vehicle trips with fleets of autonomous vehicles circling 
without anybody in them is antithetical to intelligent 
mobility, so I think we would want to make sure, in working 
with States and local partners, to make sure that that was not 
an outcome that we got.
    And your point, I think, is well taken on the increased 
fuel consumption. We haven't spoken as much about it today, but 
I think a great belief, at least globally, is that the future 
of mobility also includes a great deal of electrification of 
the fleet, and that will be something that will help with some 
of the emission issues.
    Senator Carper. That is a good point. Good point. Thank 
you.
    Is it Dr. Doerzaph? Thank you. Same question.
    Mr. Doerzaph. I am going to echo what both of them said. 
Some of that is also a sign, I think, of the current maturity 
of the industry. Sensor racks are hanging off the cars because 
we are taking legacy cars and retrofitting them. As we move 
toward vehicles which are designed for automation, some of the 
aerodynamic drag aspects will fall away. Some of the weight 
will probably fall away, as well, as those systems are 
optimized.
    And then, mostly, I would just echo that, yes, zero 
passenger vehicles should be minimized. If we are going to 
really have a profound impact on congestion, we need to double 
or triple or better on every vehicle.
    Senator Carper. All right, thanks.
    Commissioner Trottenberg.
    Ms. Trottenberg. I think you have----
    Senator Carper. Was Iris Schumer commissioner?
    Ms. Trottenberg. Yes, it was Iris.
    Senator Carper. During the Bloomberg administration?
    Ms. Trottenberg. She was Giuliani and Bloomberg.
    Senator Carper. OK.
    Ms. Trottenberg. You have asked the key question. Today we 
are focusing so much, first and foremost, understandably, on is 
the technology safe, how do we ensure it is safe, but you are 
really getting to what I think, in urban areas, is the key 
public policy question. If we deploy this safe technology, and 
all it does is further congest our streets, I think this will 
not have been a very successful program.
    I think it does bring a lot of policy considerations in, 
and ones that I will again just make a pitch, localities really 
need to be part of that process. In New York, we are now seeing 
Ubers and Lyfts are congesting our streets. They are not no 
occupant vehicles, but they are one occupant vehicles spending 
a lot of time cruising in our central business district.
    So, we need to both get the technology safe and then 
grapple with the key public policy parts of this. If we are 
just adding to the congestion and fuel consumption and 
emissions, then this technology won't have realized its 
potential.
    Senator Carper. All right, thank you.
    Dr. Kildare.
    Mr. Kildare. Thank you for the question. I believe this 
actually highlights what everyone has been saying here, that 
there are a lot of questions around these vehicles and what the 
implications are going to be, and that is one of Advocates' big 
points about the issues with the AV START Act, that there is a 
push toward deregulation and toward preempting some of the 
States from controlling what is going on with the lack of 
Federal leadership, a lack of leadership from NHTSA.
    We need that coordination between NHTSA and Federal 
Highway, and we need to be moving toward regulation, not away 
from it, to making sure that we are going to get the proper 
results that we are looking for and not have these unintended 
results that could then compound and cost billions of dollars 
when it comes to infrastructure improvements that we need to 
address the problems that are now created.
    Senator Carper. Mr. Chairman, I have two more questions 
that are fairly short.
    A question, if I could, for Dr. Doerzaph. One of the risks 
that connectivity introduces, the ability to spoof--we talked 
about this a little bit earlier--spoof, to hack or trick 
vehicles into behaving in ways they should not, the stop sign 
into 45 mile speed limit sign, such as believing a red light is 
green or a stop sign is a speed limit sign. Research news 
stories in the California Disengagement Reports have been 
useful to identify the trouble that automated vehicles have 
with consistently and correctly identifying traffic lights, 
bicycles, bridges, pedestrians, animals, and other vehicles.
    Given how difficult it is to already maintain our physical 
infrastructure free of defects, do you believe that we can 
develop a nationwide physical and digital infrastructure that 
will be pretty much foolproof, to the point that we can and 
will safely rely on it?
    Mr. Doerzaph. That is a great question. It gets back to the 
security by design question that we were talking about earlier, 
so starting that conversation now and baking it into every 
aspect of those systems is critical.
    I think it is also really important to realize or to think 
through that, yes, any one subsystem can have a failure, much 
like humans do. We may see an illusion or hear something that 
is not actually there, or misrepresent a threat. AV is subject 
to very similar set of conditions. They are slightly different 
because their sensors are different, but one of the advantages 
of AV is that we can have many more sensors.
    So, the sensor fusion aspect, where, yes, the vision system 
sees a sign that is inappropriate, well, that is OK; the 
mapping system knows the correct. And by the way, it is not 
just the maps, two maps, it is a local one that is stored and 
is known to be highly secured, and it has been confirmed by a 
recently updated map as well.
    So, really, the security is multifaceted. There is the 
aspects of the security which are keeping bad actors from 
tampering with the systems, but also the aspect of ensuring 
that what is being perceived by a sensor external to the 
vehicle is being confirmed by multiple subsystems as well.
    So, if that design is appropriately managed, as the 
evolution occurs, I think it is reasonable to reach a secure 
system. At the same time, we need to be mindful that the 
population of hackers and whatnot are bright, and they move 
with the times as well, so we need to be able to identify those 
bad actors and successfully remove them from the trust network, 
which, again, requires a very robust, nationally synchronized, 
security mechanism.
    Senator Carper. All right, thanks.
    Last question I would start with Secretary Bhatt. I don't 
know if anyone else would like to comment on this question, but 
if you want to, you are welcome to do that.
    The solvency of the Nation's Highway Trust Fund is, as you 
know, a top concern for our Committee. What are the budgetary 
implications of enhanced deployment of autonomous vehicles on 
public roadways and the cost to enable infrastructure to be 
digitally connected? Are these costs likely to exacerbate the 
funding challenges that we face already in public agencies on 
this front? On the flip side, is there a new opportunity to 
collect mileage based user fees on vehicles that are digitally 
connected to the infrastructure that they are using?
    Mr. Bhatt. Senator, thank you for that question. I think 
that you raise a couple of very important issues. As Director 
Panos has mentioned, most of the striping and signage that is 
critical for the operation of connected autonomous vehicles as 
we move forward comes out of maintenance budgets, and if you 
are going to increase your maintenance budget, that is going to 
obviously impact your construction budget.
    And as Commissioner Trottenberg mentioned earlier, the 
manufacturers need to make sure that they are factoring in the 
fact that many roads won't be able to be upgraded, given the 
budget challenges. So, I think that we need to make sure that 
we invest in technology and in infrastructure, because I think 
that technology can be used to leverage infrastructure to get 
more productivity for our economy. I think of it as a global 
economic competitiveness issue.
    I also believe that there has been a lot of discussion over 
the years; you have led many of the discussions around funding 
and gas tax issues. Outside of that, I think that the new 
technology is the best way for us to move to whatever will 
succeed the gas tax, whether it is a mileage based user fee or 
VMT or road usage charge, because I think we now have the 
technology piece that can both be secure and delay some privacy 
concerns that have been out there, and those are the 
discussions we need to begin with now.
    Senator Barrasso. Thank you, Senator Carper.
    One quick question for Mr. Kildare. Mr. Doerzaph talks 
about this plethora of sensors that are available, and I think 
you had talked about the idea of individuals have to go and get 
an eye exam at the Department of Motor Vehicles, and should 
each vehicle would independently have to go and get examined to 
make sure all the sensors are working right, or is it something 
that would be part of the patenting process when they design 
that? I am trying to figure out how that all plays into what we 
are looking at.
    Mr. Kildare. Using the term loosely for AV vision test is 
establishing requirements for what vehicles need to be able to 
see and respond to, that we need to design, if we take what we 
see at the FAA as an example, and we look at either safety the 
intended function, or we look at functional safety, your 
product needs to do the things it says it can do, and it needs 
to not do the things it says it can't do. And making sure that 
vehicles aren't operated outside of those envelopes are very 
important.
    We had the mention about the sensor fusion, getting sensors 
to work together. The first part will be can your sensors see 
that stop sign. Does it know that it is a stop sign? Does it 
know that it is a stop sign when it has been molested in some 
way, either in terms of graffiti or art work or bent or--I have 
been through Texas--shot at? They are used for target practice. 
There are a lot of changes that can happen out there. We need 
to establish what are the requirements for whatever that 
operation is going to be.
    We know in the Tesla crash down in Florida, that that 
vehicle was not supposed to be operating under autopilot on 
that road, but it was. So how do we do that? What are the 
requirements we need to establish? If you tell us your vehicle 
operates only on highways, how do you prove that that vehicle 
only operates on highways? The same thing for the vision. What 
does it need to see?
    The vision test that we have implies some responsibility on 
the part of the driver. We ask people to identify a stop sign 
because they have to stop the vehicle. Now that we are testing 
the machine, it has to see the stop sign at all times, and it 
has to decide to stop the vehicle. That is what we have to 
require. That is the concern that we have with what we are 
seeing in the AV START Act, is that we don't see any of these 
requirements coming up, and we need them.
    Senator Barrasso. I appreciate it.
    I appreciate the panel and all your thoughts.
    Senator Carper, if you read broadly on this, the technology 
of where this may go to the issue of these driverless cars 
circling or do they go someplace else, if they go someplace 
else, people write about eliminating many parking lots and 
having an opportunity for actually more buildings in 
communities.
    What does it change in the real estate markets? An article 
in The Economist this week, under Free Exchange, called ``Road 
Hogs,'' says economies of scale will push the market for 
driverless vehicles toward a monopoly.
    There are many different components of all of this. They 
are talking about car dealers no longer going to sell to an 
individual, but to a fleet, and how does this change the number 
of vehicles on the market.
    I don't know that any of us, if you read enough and 
different futurists who look at this, it doesn't seem to be 
that there is a uniform agreement as to where the future may be 
taking us as this all plays out in time, so I am just very 
grateful that all of you would take your time today to come 
here to testify from a variety of backgrounds, but to give us 
your very best thoughts. I thought it was a very helpful 
hearing, and I appreciate all of you.
    The hearing record is going to remain open for a couple 
more weeks--actually 2 weeks--so some other members who have 
been here and haven't had a chance to ask questions may submit 
written questions to you, so I want to thank you again for your 
testimony today on this very important issue.
    With that, the hearing is adjourned.
    [Whereupon, at 11:39 a.m. the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
                                 [all]




</pre></body></html>
